C@OCKLE

. E-Mail Address:
Le ga 1 Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

Nos. 19-465, 19-518

PETER BRET CHIAFALO, LEVI JENNET GUERRA,
AND ESTHER VIRGINIA JOHN,
Petitioners,
Vv.
STATE OF WASHINGTON,
Respondent.

COLORADO DEPARTMENT OF STATE,
Petitioner,
v.
MICHEAL BACA, POLLY BACA,
AND ROBERT NEMANICH,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE INDEPENDENCE INSTITUTE IN SUPPORT OF THE PRESIDENTIAL ELECTORS
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 5431 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 6th day of March, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

fee] Kone, 0. Loca Onda. Chl

My Comm, Exp. September 8, 2023

 

Notary Public (7 Affiant 39475
